Supreme Court, U.S.
FILED

. NOV 1.6

IN THE SUPREME COURT OF THE UNITED STATE

OFFICE OF THE CLERK

NO.

MARLON IRON CROW, PETITIONER,
-vsUNITED STATES OF AMERICA,
RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

PETITIONER'S MOTION TO PROCEED ON WRIT OF CERTIORARI
IN FORMA PAUPERIS

Jamy Patterson
The Law Office of Jamy Patterson, LLC
(In care of) 1719 West Main St., STE 407
Rapid City, SD 57702
Telephone: (605) 390-8918
ATTORNEY FOR PETITIONER

2020

MOTION TO PROCEED ON WRIT OF CERTIORARI
IN FORMA PAUPERIS

Pursuant to Rule 39 of this Court, Petitioner Marlon Iron Crow requests
leave to file the accompanying Petition for Writ of Certiorari without prepayment of
fees or costs, and to proceed in forma pauperis.
Undersigned counsel has previously been appointed to represent Petitioner
Iron Crow under the Criminal Justice Act, 18 United States Code Section 3006A, in
his direct appeal before the Eighth Circuit Court of Appeals. A copy of the Eighth
Circuit Court of Appeals order appointing undersigned counsel is attached hereto.
Dated this 15 day of December, 2020.

Respectfully submitted,
THE LAW OFFICE OF JAMY PATTERSON, L.L.0
By:

Jarlfy Patterson
Attorney for Petitioner Marlon Iron Crow
(in care of) 1719 West Main St., Ste 407
Rapid City, SD 57702
Telephone: 605-390-8918
jamypattersonlaw@gmail.com

